WOLFE WILLIAMS & REYNOLDS

ATTORNEYS AND COUNSELORS AT LAW

Joey G. ARNOLD" VICTORIA S. HERMAN*
BRAD AUSTIN 28 Cross Roaps Drive * MT. Hope, WEST VIRGINIA 25880 JASON T. MARSHALL”
Davin S. Bary? TELEPHONE (304) 461-7774 » Fax (304) 461-7606 P. HEITH REYNOLDS*
Bosay S. BELCHER, JR. VERNON M. WILLIAMS
W. ANorew DELPH, JR. JosePH E. WOLFE

RACHEL WOLFE
“Member of TN and NC Bar www.wwrrlawfirm.com tember of WV and VA Bar
"Member of TN Bar All Attorneys Licensed in Virginia Except as Noted ‘Member of KY and VA Bar

5 Member of TN and WV Bar

July 26, 2019

Mr. Scott S. Harris, Clerk of
The Supreme Court of the United States
1 First Street, N.W.
Washington, D.C. 20543
RE: Rockwood Casualty Ins. Co., insurer of Hidden Splendor Resources, Inc.
vy. Tony Kourianos and Director, OWCP Department of Labor
U.S. Supreme Court No. 19-23

Request to Join Extension of Time Request
Dear Mr. Harris, Clerk of the Supreme Court of the United States,

Mr. Tony Kourianos, Respondent, respectfully requests this Court to grant
permission for Respondent Tony Kourianos to join the granted request for extension
of time to file a response brief for the Department of Justice, up to and including
September 3, 2019. This will allow all respondents to file briefs on the same date and

the Petitioner to file one reply, if necessary. By reason of the circumstances set forth

above, it is submitted that the requested extension, up to and including September 3,

 

Victoria Herman

Brad A. Austin

M. Rachel Wolfe

Wolfe Williams & Reynolds
PO Box 625

Norton, VA 24273
Certificate of Service
I, Joseph E. Wolfe, pursuant to U.S. Sup. Ct. R. 29 do certify that Ihave served
a copy of the foregoing Request to Join Extension of Time Request via first class mail
on this, the 26th of July, 2019.

Rita Roppolo

Gary Stearman

William M. Bush

United States Department of Labor
Office of the Solicitor

N-2119

200 Constitution Avenue NW
Washington, DC 20210-0000
202-693-5664
blls-sol@dol.gov
roppolo.rita@dol.gov
stearman.gary@dol.gov

bush. william@dol.gov

Noel Francisco

Solicitor General of the United States
Room 5616

DEPARTMENT OF JUSTICE

950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

(202) 514-2217

SupremeCtBriefs@USDOJ.gov

Cheryl L. Intravaia

Counsel of Record
FEIRICH/MAGER/GREEN/RYAN
2001 West Main Street
P.O. Box 1570
Carbondale, IL 62903
(618) 529-3000
cintravaia@fmgr.com
   
  

je Counsel 0;
Victoria Herman

Brad A. Austin

M. Rachel Wolfe

Wolfe Williams & Reynolds
PO Box 625

Norton, VA 24273
